<html>
<title> - THE SOCIAL SECURITY ADMINISTRATION: IS IT MEETING ITS RESPONSIBILITIES TO SAVE TAXPAYER DOLLARS AND SERVE THE PUBLIC?</title>
<body><pre>[Senate Hearing 112-751]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-751
 
                  THE SOCIAL SECURITY ADMINISTRATION:

               IS IT MEETING ITS RESPONSIBILITIES TO SAVE

                 TAXPAYER DOLLARS AND SERVE THE PUBLIC?
=======================================================================



                                HEARING

                               before the

                          COMMITTEE ON FINANCE

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2012

                               __________

                                     
                                     

            Printed for the use of the Committee on Finance




                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
KENT CONRAD, North Dakota            OLYMPIA J. SNOWE, Maine
JEFF BINGAMAN, New Mexico            JON KYL, Arizona
JOHN F. KERRY, Massachusetts         MIKE CRAPO, Idaho
RON WYDEN, Oregon                    PAT ROBERTS, Kansas
CHARLES E. SCHUMER, New York         MICHAEL B. ENZI, Wyoming
DEBBIE STABENOW, Michigan            JOHN CORNYN, Texas
MARIA CANTWELL, Washington           TOM COBURN, Oklahoma
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware
BENJAMIN L. CARDIN, Maryland

                    Russell Sullivan, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     3

                         ADMINISTRATION WITNESS

Astrue, Hon. Michael J., Commissioner, Social Security 
  Administration, Baltimore, MD..................................     5

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Astrue, Hon. Michael J.:
    Testimony....................................................     5
    Prepared statement...........................................    25
    Responses to questions from committee members................    47
Baucus, Hon. Max:
    Opening statement............................................     1
    Prepared statement...........................................    92
Coburn, Hon. Tom:
    ``Two Lawyers Strike Gold in U.S. Disability System,'' by 
      Damian Paletta and Dionne Searcey, Wall Steet Journal, 
      December 22, 2011..........................................    94
    Letter from Senator Coburn to Michael J. Astrue, dated 
      December 22, 2011..........................................   100
    Letter from Michael J. Astrue to Senator Coburn, dated 
      January 12, 2012...........................................   101
    Letter from Senator Coburn to Michael J. Astrue, dated 
      January 24, 2012...........................................   102
    Letter from Michael J. Astrue to Senator Coburn, dated March 
      1, 2012....................................................   104
Hatch, Hon. Orrin G.:
    Opening statement............................................     3
    Prepared statement...........................................   105

                             Communications

Allsup, James F..................................................   107
Center for Fiscal Equity.........................................   111

                                 (iii)


                  THE SOCIAL SECURITY ADMINISTRATION:


                   IS IT MEETING ITS RESPONSIBILITIES


                        TO SAVE TAXPAYER DOLLARS


                         AND SERVE THE PUBLIC?

                              ----------                              


                         THURSDAY, MAY 17, 2012

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:05 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus (chairman of the committee) presiding.
    Present: Senators Nelson, Cardin, Hatch, Grassley, and 
Thune.
    Also present: Democratic Staff: Amber Cottle, Chief 
International Trade Counsel; Alan Cohen, Senior Budget Analyst; 
Tom Klouda, Professional Staff Member, Social Security; and 
Claire Green, Detailee. Republican Staff: Chris Campbell, Staff 
Director; and Jeff Wrase, Chief Economist.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The hearing will come to order.
    President Kennedy once said, ``A nation's strength lies in 
the well-being of its people.'' No Federal program touches more 
American lives and benefits more American families than Social 
Security. Next year, the Social Security Administration will 
pay benefits to almost 60 million Americans. Today we will 
examine the Agency's performance delivering benefits to workers 
and their families and its role of saving taxpayer dollars. 
This is not a hearing about Social Security solvency.
    We will hear from the Commissioner of the Social Security 
Administration, Michael Astrue. Commissioner Astrue, during 
your confirmation hearing before this committee in 2007, you 
committed to reduce the disability hearings backlog. Today we 
will evaluate the result.
    At the beginning of last year, more than 771,000 people 
were waiting for a hearing. This is higher than when you 
started your term. I expect to hear why the backlog grew and 
what the Agency is doing to address it.
    Michael Clouse, who lives in my hometown of Helena, MT, 
needs this backlog to be fixed. He has spent years trying to 
work through the red tape. Mike is a 55-year-old Army veteran, 
and his service did not end when he retired from the military. 
Mike volunteers with the American Legion and with the Disabled 
American Veterans, helping other veterans find transportation 
to hospitals across Montana.
    But his health problems make it tough for him to volunteer 
to do other work. During a military training exercise years 
ago, a tank next to him accidentally fired. Mike's back broke 
in the accident, and ever since he has suffered chronic back 
pain. Mike worked in heating and plumbing before joining the 
military. He was working as an Employment Specialist with the 
Montana Department of Labor Job Service in 2004 when his 
disabilities became just too much to bear.
    He had to leave his job, and he applied for benefits 
shortly thereafter. Mike has waited since 2005 for his 
benefits, 7 years. He has been shuttled between various Social 
Security offices, and his paperwork has gotten lost. Mike and 
his wife Teese had to sell their home in Butte, MT to be closer 
to his hospital in Helena. They could not take the physical 
demands and cost of traveling.
    Teese, who is his caregiver, went back to work to make ends 
meet. Things have been a struggle for them. The financial 
hardship means they are unable to visit their children and 
their grandchildren. At an age when many Americans are planning 
their retirements and their financial futures, Mike and Teese 
are stuck. Mike stepped up, volunteered to serve his country, 
but now the shoe is on the other foot. He is waiting for his 
country to serve him.
    Fortunately, we are seeing one sign of progress at the 
Social Security Administration. It does not take as long for 
people to get a decision on their claim. At the end of 2008, it 
took 514 days, almost a year and a half. In 2011, a few years 
later, it took 360 days, about a year. This is substantial 
progress, but still too long. Mr. Astrue, you set a goal of 270 
days by the end of fiscal year 2013. Together, we need to meet 
this goal.
    While your Agency has seen 50 percent more retirement 
applications since 2001, that is, applications with respect to 
Social Security generally, there are fewer workers to deal with 
the increased workload. These challenges have been compounded 
because the Agency's budget remained flat during the last 2 
years.
    The Social Security Administration needs an adequate budget 
to fix the disability backlog and root out improper payments, 
that is, to do both. For fiscal year 2013, the President has 
asked for $11.76 billion. This is $370 million more than last 
year, most of which is dedicated to reducing improper payments, 
thereby improving the long-term outlook of Social Security. 
Every dollar spent to root out improper payments saves $6 to 
$10 in the long run, and those are dollars that go to help the 
trust fund.
    Unfortunately, Congress did not provide full funding for 
these efforts in fiscal year 2012. Doing so would have saved 
taxpayers more than $800 million. If the Congress had followed 
the President's recommendation, it would have saved the trust 
fund $800 million. Social Security beneficiaries would have 
$800 million more of a cushion in the Social Security trust 
fund.
    We all talk about saving Social Security. Here is a great 
return, saving $6 for each dollar spent or saving $10 for each 
dollar spent. It does not get much better than that! But still, 
Congress was very short-sighted and did not recognize the real 
pay-out here for some reason; I do not know why. We cannot 
afford to repeat this mistake. Failing to fully fund program 
integrity is penny wise and pound foolish.
    So let us invest Social Security dollars wisely. Let us 
reduce the disability backlog. We could do both. Let us ensure 
that Americans like Michael Clouse are not stuck waiting for 
benefits they have earned. Let us ensure that the Social 
Security program is making the program stronger by improving 
Americans' well-being.
    [The prepared statement of Chairman Baucus appears in the 
appendix.]
    The Chairman. Senator Hatch?

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman. I want to thank you 
for scheduling this hearing, and I join you in welcoming 
Commissioner Astrue.
    The Social Security Administration oversees numerous 
programs and is responsible for the stewardship of significant 
taxpayer resources. We are all interested in hearing from the 
Commissioner about his stewardship of those resources, his 
plans for the future, and his strategies for confronting 
existing and ongoing challenges facing Social Security's 
programs.
    A few short weeks ago we received a reminder of some of the 
challenges facing Social Security's finances in the Annual 
Report of the Trustees. According to the report, the combined 
Old-Age and Survivor's Insurance and Disability Insurance trust 
funds within Social Security are projected to be exhausted in 
2033, 3 years sooner than in the previous year's report.
    The trustees identified that, as the system is currently 
structured, Social Security beneficiaries face benefit cuts of 
as much as 25 percent in 2033, with further cuts thereafter. To 
state things simply, current promises embedded in Social 
Security cannot be sustained, given the system's existing 
structure. Worse still, the Disability Insurance trust fund is 
projected to become exhausted in 2016, less than 4 years from 
now, and 2 years earlier than estimated just 1 year ago.
    Absent changes, disabled workers will very soon face the 
real threat of a 21-percent benefit cut in 2016. With the 
recent explosive growth in the ranks of Disability Insurance 
benefit recipients far outpacing the growth in the general 
working population, 2016 might be a rosy outlook in terms of 
when the Disability trust fund actually becomes exhausted.
    Benefit programs in the Disability Insurance program have 
increased by a remarkable 134 percent since 2000. Following the 
fiscal cliff that we face at the end of this year, we have a 
solvency cliff in 2016 for the Disability Insurance program, 
and then another solvency cliff for the Social Security 
retirement program.
    Yet in the face of these known dangers, we continue to kick 
the can down the road instead of addressing the known problems. 
We should not act like Thelma and Louise when it comes to 
Social Security and our economy by driving them off a cliff 
into an abyss of insolvency and economic decline.
    Inaction is irresponsible. As the President remarked 
recently in advocating more tax-and-spend policies, the fact 
that this is an election year is not an excuse for inaction. 
Unfortunately, I am not aware of any plans by the 
administration to tackle the looming exhaustion of the 
Disability Insurance trust fund or the general unsustainability 
of Social Security.
    As far as Social Security is concerned, it appears that 
this being an election year is the administration's reason for 
inaction and is just another excuse for them to kick the can 
down the road once again.
    So many tax provisions expire at the end of this year that 
a dangerous fiscal cliff has formed. By not acting now, we are 
just stepping on the accelerator, even as we are already 
perilously close to the cliff. Inaction for the rest of the 
year only invites careless and hasty decision-making, which 
leads, of course, to bad policy.
    I urge the administration to work with Congress on the 
mountainous to-do list of expiring tax provisions and 
unsustainable entitlement promises in the interest of sound 
policymaking, certainty, and the provision of an economic 
environment fertile for growth and jobs, and of course for the 
economy generally.
    There is no reason to delay efforts that will place the 
programs in Social Security on a sustainable financial path. As 
virtually everyone acknowledges, the sooner we address this 
issue, the better.
    Now, Mr. Chairman, I appreciate you holding this hearing. 
Commissioner Astrue, I know that you have an insurmountable job 
in many ways, and we have great respect for you. I want to 
thank you for your service and for joining us today, and I look 
forward to hearing about your budget, your challenges, and your 
plans for the Social Security Administration. We appreciate you 
coming.
    The Chairman. Thank you very much, Senator.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. Mr. Astrue, I would just like to review some 
numbers here and see if they are accurate. There is some talk 
about--oh, sorry. Do you have an opening statement? Do you want 
to talk? [Laughter.]
    Commissioner Astrue. If it pleases the committee.
    The Chairman. I am so excited about asking you questions.
    Commissioner Astrue. Well, if we can contain the excitement 
for a minute, I will try to be brief. I understand I have a 
couple of minutes of grace on the standard 5 minutes, since I 
am the only witness today, but I will try to make it as quick 
and painless as I possibly can.
    The Chairman. I apologize.
    Commissioner Astrue. Chairman Baucus----
    The Chairman. I will introduce you.
    Commissioner Astrue. Oh, I am sorry. [Laughter.]
    The Chairman. We have a very distinguished guest today----
    Senator Hatch. And I am happy to have you introduce him.
    The Chairman [continuing]. The Commissioner of Social 
Security, the Honorable Michael J. Astrue. We very much look 
forward to your testimony, Commissioner. I have known you for 
several years in different capacities, and you do just super 
work. We are very, very proud of you. As Senator Hatch said, 
you have a nearly impossible job, but you perform it admirably, 
with dignity, and with conviction and conscientiousness, and we 
deeply appreciate your work.
    So, why don't you proceed? You have a little more than a 
few minutes here. You can take your time.
    Commissioner Astrue. Thank you, Mr. Chairman.
    The Chairman. And your statement will automatically be in 
the record.
    Commissioner Astrue. Thank you.
    The Chairman. Yes.

   STATEMENT OF HON. MICHAEL J. ASTRUE, COMMISSIONER, SOCIAL 
             SECURITY ADMINISTRATION, BALTIMORE, MD

    Commissioner Astrue. Chairman Baucus, Ranking Member Hatch, 
members of the committee, thank you for this opportunity to 
discuss the resources we need to continue providing outstanding 
public service.
    As we do so, we must always remember that we must maintain 
our responsibility to save taxpayer dollars. In every fiscal 
year from 1994 through 2007, Congress appropriated less money 
than the President requested. At the same time, our workload 
steadily increased because the Nation's population was growing 
and the Baby Boom generation entered its disability-prone years 
before filing for retirement.
    Congress has also added dozens of new statutory 
responsibilities without simplifying the complexities of the 
Social Security Act, which has grown over 77 years. Our 
employees' fortitude has allowed us to keep up to some extent, 
but we have started to lose ground.
    From 2001 through 2007, the Agency responded to budget cuts 
by dramatically reducing its program integrity work, an 
extremely poor choice from the taxpayers' perspective. As you 
mentioned in your opening comments, continuing disability 
reviews save taxpayers substantial dollars for every 
administrative dollar spent.
    The Agency also responded to budget cuts by under-investing 
in its hearing and appeals staff. As a result, delays for 
disability hearings steadily worsened and became a national 
disgrace. Not only was Government failing its citizens, it was 
also spending more administrative money per claim to eventually 
handle these claims that were taking too long.
    When I started as Commissioner, the first issue this 
committee raised was the hearings backlog. At that time, it 
took, on average, more than 500 days for a person to get a 
hearing. We all agreed that had to change. I made the case that 
we needed to move in new directions, and you understood it 
would only be possible with your support.
    The investments that you made produced substantial 
dividends. Despite a huge increase in disability applications 
caused by the deepest recession since the Great Depression, we 
have weathered a storm that produced over 600,000 more 
applications each year than our actuaries projected before the 
recession.
    We have, nonetheless, cut the average wait for a hearing 
decision from about 532 days in 2008 to a recent level of about 
350 days, and we did so while handling the oldest cases first. 
Currently, every hearing office in the country has an average 
wait of less than 475 days. Five years ago, some offices had 
waits of 900 days, and 65,000 people waited over 1,000 days for 
a decision.
    Each year we challenge ourselves by tightening our 
definition of an old case. This year we have already completed 
90 percent of our cases over 725 days old, and next year we 
will focus on cases 700 days or older. While the total number 
of hearings has increased due to a tsunami of applications, the 
queue is moving faster and faster.
    In fiscal year 2007, the average age of a case waiting in 
the queue was 324 days. Today, it is down to 209 days. We have 
made these improvements and maintained service also at the 
front end of the disability process. Despite an over 30-percent 
increase in initial disability applications since 2007, we have 
kept the average wait for an initial decision approximately 
steady, and the level of pending cases is much lower than we 
originally projected.
    Quality is up over the past 5 years for these decisions, 
and we are now fast-tracking 6 percent of our initial 
applications with our new Compassionate Allowance and Quick 
Disability Determination processes. Severely disabled 
applicants, who often waited years for a decision in the past, 
now get one in an average of 10 to 14 days.
    Five years ago, you would have probably gotten a busy 
signal when you called a field office. Now the busy rate is 
less than 10 percent. Last year, we had the lowest waits and 
busy rates ever on our 800 telephone number. We have also made 
progress in policy. We have updated medical rules that had been 
out of date for decades, and we have started the long, slow 
process of overhauling our main vocational tool, the Dictionary 
of Occupational Titles, which the Department of Labor largely 
stopped updating in the late 1970s.
    Early in my tenure, I was stunned to learn that the office 
responsible for notices had been disbanded. We mail 350 million 
notices each year to the American public. Many of these 
important communications were inaccurate and poorly written. We 
have been rewriting our notices systematically in plain 
language to make it easier for people to understand our actions 
and their responsibilities. Program integrity work, while still 
not funded at the levels requested, is up substantially.
    We are also taking advantage of technology. We redesigned 
our online services, which have been invaluable in helping us 
keep up with recession-related work. We have four of the five 
most highly rated electronic services in the Federal 
Government, and we are the only Federal agency widely offering 
online services in Spanish.
    For the first time ever, we have a backup for our National 
Computer Center, and last month we finally had the ground-
breaking ceremony for the state-of-the-art replacement 
facility. The new building, by the way, will be constructed for 
about $75 million less than the original cost that we and the 
Congress had projected.
    None of these accomplishments would be possible without our 
employees, who have achieved an average productivity increase 
of 4 percent a year for the past 5 years, and a higher rate 
this year so far, a remarkable achievement that very few 
organizations, public or private, can match. We all owe them 
our gratitude for their work on the front lines.
    I am concerned that, despite their hard work, we are seeing 
signs that we will soon be moving backwards for most of our key 
service goals. In fiscal years 2011 and 2012, the difference 
between the President's budget and our appropriation was 
greater than in any other year of the previous 2 decades. Also, 
last year Congress rescinded $275 million from our Information 
Technology carry-over funding, which will greatly damage our 
efforts to maintain our productivity increases through IT 
innovation.
    We are starting to see the consequences of these decisions. 
Our progress in addressing our hearings backlog, for example, 
is not happening as quickly as the public deserves. We need 
your support for the President's fiscal year 2013 budget 
request, as well as a timely and adequate supply of well-
qualified judges from the Office of Personnel Management, if we 
are to achieve our goal of an average processing time of 270 
days by the end of next year.
    Few people realize that a rapidly increasing percentage of 
our work results from our verification role for other Federal, 
State, and local entities. For example, the number of people 
who visited our offices to verify their benefits for a third 
party has increased by 46 percent since 2007. Last year we 
conducted 1.4 billion verifications for programs such as E-
Verify, voter registration, driver's licenses, and health care 
programs.
    While most of these verifications occur cheaply and 
automatically, a small but increasing number result in non-
matches that strain the resources of our rapidly shrinking 
field offices. Many members of Congress have written about the 
importance of our service in local communities. Unfortunately, 
budget cuts do not allow us to employ the staff necessary to 
meet all their expectations.
    By the end of this fiscal year, we will have lost 6,500 
Federal and State employees in the past 2 years. As you well 
know, attrition by hiring freeze does not occur evenly, and 
many of our smaller, rural offices have been hit harder than 
the average office. Much of the progress we have made in the 
past 5 years could vanish if we keep losing staff at this rate 
and in this fashion.
    Our accomplishments demonstrate the direct correlation 
between funding and service. I appreciate this opportunity to 
explain the wonderful work that the men and women of the Social 
Security Administration perform under enormous and increasing 
stress. They need your continued support, as reflected in the 
President's fiscal year 2013 budget request, to continue to 
serve the American people in the way that you and I expect.
    I would be happy to answer any questions you may have.
    The Chairman. Well, thank you. Thank you, Commissioner 
Astrue.
    [The prepared statement of Commissioner Astrue appears in 
the appendix.]
    The Chairman. I would like to just indicate what the DDS 
Director in Montana thinks. That Director reports that the 
disability claims process is in the worst shape in its history. 
DDS there has 1,500 claims waiting to be assigned, and it takes 
about 45 days before someone can even look at a claim.
    The Director of Montana states, ``We are the poster child 
for what happens with a hiring freeze: high attrition and 
increasing caseload.'' So, Commissioner Astrue, I would just 
like to ask you your thoughts about all that. We clearly want 
to see the disability hearings backlog improved, which you are 
working on. But we clearly do not want to leave other efforts 
off to the side.
    Could you just comment on what will happen to your Agency 
if we do not get the President's budget request? Again, just in 
ordinary terms that people can understand.
    Commissioner Astrue. Sure. Mr. Chairman, we are now getting 
very close to the level of employees that we had 5 years ago 
and could start dropping below that before terribly long. The 
retirements and the attrition do not happen evenly around the 
organization, so, not only do we have the problem that we have 
fewer people to do the work, we have the wrong people in the 
wrong places. With all the restrictions of Government, it is 
not easy to move people and move work in the way that allows 
for the optimal result.
    So we expect that we will continue to be contracting the 
number of field offices that we have. We have already closed 
virtually all of the contact stations. We have closed most of 
the remote hearing offices for the Office of Disability and 
Adjudication Review (ODAR). We expect that we will start having 
backlogs at the Disability Determination Services (DDS) level 
that we have not had before, and people will be waiting longer 
for services in field offices.
    I think there is a real question as to whether we are going 
to hit the 270-day goal at the end of next year. We had been 
making great progress with that. Congress wanted to check and 
asked the Government Accountability Office (GAO) to do a 
crystal ball analysis, and we did well on that a couple of 
years ago. I think it is really a question of will at this 
point.
    If the Congress wants us to make that goal, it is within 
your control to give us the money to hit the goal. I think, if 
you support us adequately, it would be close now; we lost most 
of our margin of error last year. We could still hit it, I 
think, with support from Congress. But, if we do not get 
support for the President's budget, the chances that we will 
hit the 270-day goal on time are almost non-existent.
    The Chairman. Would you explain a little bit about how it 
takes a while to train new people to do the work? I mean, this 
is not work that you just hand to the person--man or woman--who 
walks in the office the first day and say, here is your job.
    Commissioner Astrue. That is exactly right. I think about 
every 3 years the Supreme Court complains about the complexity 
of the Social Security Act, and there are some memorable quotes 
about that.
    We expect that, for most of our front-line workers, whether 
they are in the DDS in Montana or whether they are in the field 
office, the work is so complicated that they contribute 
relatively little in their first year of work. It is mostly 
learning.
    In fact, they can be a real drain on productivity, because 
someone who knows how to do the work has to take the time to 
make sure that the person is learning and that the work is 
properly done.
    So really, you start contributing in your second year, and 
you are probably not, in most cases, reasonably productive from 
an operations point of view until after the second year. It is 
a particular problem with the DDSs, because the salary scales 
in the States are very low and the turnover is very high. Our 
attrition rate tends to be around 3 to 6 percent for the 
Federal employees, and tends to be 9 to 10 percent for the 
State employees.
    The attrition rate, I think, was in the 30s in Utah a 
couple of years ago, and, with Senator Hatch's guidance and 
support, we worked with the State to reclassify the jobs so 
that they were a little bit more remunerative so we could 
actually hold onto the employees who were doing the front-line 
work.
    The Chairman. You mentioned that most of your temporary 
sites are being closed. It is my understanding that you plan to 
offer a permanent site in Great Falls, MT. Is that correct?
    Commissioner Astrue. Yes, that is correct. We had been 
planning to. We had been working with the General Services 
Administration to find an appropriate site at an appropriate 
cost. We just actually had a letter from Senator Tester that I 
think we just responded to yesterday or the day before 
confirming that a permanent site will be coming.
    The Chairman. Yes. For those who are not familiar with the 
distances in Montana, that is very significant, because 
otherwise people in the Great Falls area, and even north of 
Great Falls, would have to go to Billings, MT. That is many, 
many hours' drive.
    Commissioner Astrue. Yes.
    The Chairman. It is a long, long, long way.
    Commissioner Astrue. I understand.
    The Chairman. So, it makes a big difference. We deeply 
appreciate that, recognizing the remote nature of our State, so 
people with a disability do not have to drive quite as far. I 
mean, that is a big burden to put on people to have to drive 
that great distance.
    Commissioner Astrue. That will be a permanent video link. I 
think, particularly for those of you in rural States, we need 
your support on video. We are not going to have the staff to do 
everything face-to-face the way that we could 30 years ago. The 
quality of the video is very high. You can actually see the 
watermark on a driver's license now in the video well enough to 
use that for verification purposes from a remote location.
    Also, for hearings, I am frustrated that not a lot of 
attorneys are taking us up on this yet. They can now do video 
hearings from the comfort of their own offices with a 
relatively small investment in equipment. It would make us much 
more efficient. It would allow us to spend less on bricks and 
mortar if more of the attorneys representing claimants would 
take us up now on the offer that they can run the hearings by 
video from their own offices.
    The Chairman. Is there any incentive you could provide?
    Commissioner Astrue. Not under the current statute, but I 
think that is a very fine question, Mr. Chairman.
    The Chairman. Thank you.
    Senator Hatch?
    Senator Hatch. Well, thank you, Mr. Chairman.
    Commissioner, there have been reports of problems in Social 
Security's disability programs, as you have outlined. Some 
relate to possibly careless, or even corrupt, benefit grants 
made by administrative law judges, and some relate to attorneys 
representing claimants in the appeals process.
    Now, it seems to me that the stakes are pretty large. Dr. 
Mark Warshawsky, currently a member of the Social Security 
Advisory Board, recently presented evidence that administrative 
law judges with low claim denial rates who decide on many cases 
``have a fixed tendency over time to rarely deny claims'' and 
calculated that, if remedies were put in place to shore up the 
claims process, we could save tens of billions of dollars.
    Of course, those savings could then be used to provide 
benefits for the truly disabled and would help with the nearly 
exhausted Disability Insurance trust fund.
    Let me be clear. Disabled workers who are eligible for 
benefits and have bona fide disabilities are fully entitled to 
what the DI program provides. However, there seems to be 
evidence suggesting that some of the decision-making could be 
leading to benefits being granted in cases where there is no 
bona fide disability.
    Those cases drain taxpayer resources away from where they 
were intended to go and rob the DI trust fund of resources that 
should be going to the truly disabled. No American worker and 
no disabled worker likes it when someone defrauds the system 
and takes resources intended for those truly in need. It is 
truly not fair, and tens of billions of dollars may be at stake 
here.
    Now, Mr. Commissioner, I know that you are working to 
address problems in the DI system, but I wonder if you could 
comment on where you believe further work needs to be done in 
addition to what you have said here, and what are you doing to 
enhance the integrity of the DI claims process?
    Commissioner Astrue. That is a very fine question, Senator 
Hatch. I speak with a lot of well-motivated people who have a 
philosophical feeling that we should be granting a lot more 
benefits or a lot fewer benefits. I do not view that as my 
goal. What I view as my goal is to have our judges call it as 
squarely as possible on the basis of the statutes that you and 
the Congress have written.
    I think that what gives me cause for concern are the judges 
who--in my opinion, out of arrogance or ideology--take it upon 
themselves to ignore the law that you have written and that 
they are pledged to uphold, and make their own judgments, 
either to be a Robin Hood or to be a Scrooge.
    If you look at the statistics on the outliers, we have 
improved significantly in the last 5 years. We have done that 
with better training of the new judges, and we have done that 
with more counseling. We have also been more active in 
discipline, although we have not disciplined a judge for not 
adhering to the law yet.
    But the same arrogance that leads a judge to engage in that 
kind of behavior also usually allows them to engage in other 
kinds of inappropriate behavior. So we have removed more judges 
for conduct on my watch than under all the previous 
Commissioners' combined.
    That has started to have a beneficial effect, but I do not 
want to suggest to you, Senator Hatch, that we are where we 
should be. The number of judges who are basically thumbing 
their nose at you, the Congress, is still higher than it should 
be. It should be zero.
    I think that my authority in that area is gray. There was a 
hearing on the House side--I would commend the transcript of 
that to you--a joint hearing with the Ways and Means Committee 
and the Judiciary Committee. I think if you are concerned about 
the issue, I am more than willing, and the Agency is more than 
willing, to take it on. But I think you need to look at how to 
strengthen the Agency's authority, while still respecting the 
independence of the judiciary.
    Senator Hatch. Well, thank you. Mr. Commissioner, the 
Disability Insurance program disbursed $130 billion in benefit 
payments in 2011 and is one of the fastest-growing of all of 
our entitlement programs. In just over a decade, aggregate 
payments in the DI program have risen by almost 135 percent.
    Now, it does not take a rocket scientist to recognize that 
this type of growth is unsustainable. According to the Social 
Security trustees, the DI trust fund will be exhausted by 2016, 
and beneficiaries will face benefit cuts of 21 percent.
    Now, some look back to the Greenspan Commission and suggest 
that we solve the problem by simply pouring funds from the Old-
Age and Survivors Insurance trust fund into the DI trust fund, 
and yet that simply robs Peter to pay Paul, in my opinion, and 
does not solve any of the structural problems.
    Now, one cause of the rapid expansion of DI costs, as some 
researchers have pointed to, stems from 1984 reforms to DI 
screening that led to rapid growth in the share of recipients 
suffering from back pain and mental illness.
    Two researchers affiliated with the National Bureau of 
Economic Research have also written that ``the DI screening 
procedure put in place by Congress hinges to a significant 
extent on an applicant's employability, not just personal 
health, causing the program to function much like a long-term 
unemployment insurance program for the unemployable.''
    Now, of course, anyone who is eligible and has a bona fide 
disability is entitled to DI benefits, but DI benefits paid to 
anyone who is not truly disabled simply take resources away 
from those who are truly disabled.
    Now, I think my time is up. Can I ask these two questions?
    The Chairman. Absolutely.
    Senator Hatch. I have two questions related to the DI 
program. First, do you agree that the sometimes difficult-to-
diagnose conditions related to back pain and mental illness 
account for some of the most rapid expansion of the DI 
beneficiary population?
    And second, to what extent do the opinions of those making 
DI benefit decisions about local or national labor market 
conditions determine eligibility for DI benefits? That is, has 
DI become an unemployment benefit provider of last resort?
    Commissioner Astrue. Senator Hatch, let me say, I think 
that Disability Insurance is a rapidly growing program. There 
have been some analyses I have seen recently that misunderstand 
the nature of that. Most of that has been predictable and has 
been predicted by the actuaries for a long time.
    If you simply compare the growth in DI to the growth in 
population, you would think, the program is growing faster than 
it should. But when you factor in people like me, who at 25 are 
perfectly healthy, but not so much at 55, the actuaries say 
that almost all the growth in DI is consistent with what they 
have been predicting for a long time based on the Baby Boomers 
going through their disability-prone years.
    Having said that, if you look on a more granular basis at 
some of the causes of growth, I certainly say, with mental 
illness, you are correct. We as a society are diagnosing mental 
illness more frequently, we are prescribing treatments for 
mental illness much more frequently than in the past, and it is 
certainly a significant factor in the growth. I am less sure 
that the back pain and the muscular damage is as much of a 
factor, but we will go back, and we will give you information 
on that for the record.
     [The information appears in the appendix on p. 51.]
    Commissioner Astrue. In terms of being a backup provider of 
unemployment, other nations--England, for instance--quite 
consciously did that, regretted it, and are pushing back in the 
other direction. I think that there is a fair amount of 
evidence from how the Agency has handled cases during this 
recession to indicate that is not true.
    I think that we are calling cases squarely, for the most 
part, exactly as we have been, but our allowance rates have 
dropped at the DDS and the ODAR level to the lowest in a very 
long period of time. At ODAR in the last few months, it is a 
50-percent allowance rate. We have not seen that since I had my 
first job in the Senate in 1978.
    At the DDSs, you have to go back to, I think, 1997 until 
you see an allowance rate as low. And I do not think it is 
because we have become tougher or because we have changed our 
standard. But what happens during recessions is that 
economically desperate people apply, and the vast majority of 
them get rejected because we adhere to the statutory standard. 
We do not feel that we are supposed to turn it into exactly 
what you are concerned about.
    Now, when you have 650,000 more applications in a year, are 
we perfect? Are there some people who slid through during the 
recession, were allowed benefits that probably should not have 
been? Probably some. But I think for the most part we have 
administered the program with integrity and tried to do exactly 
what the Congress has told us to do and not take it upon 
ourselves to move the standard, move the needle, in one 
direction or the other.
    The Chairman. Thank you very much.
    Senator Hatch. Thank you. I appreciate it.
    The Chairman. You bet.
    Senator Cardin?
    Senator Cardin. Mr. Chairman, first of all, thank you for 
this hearing. Commissioner Astrue, it is a pleasure to have you 
before the committee.
    I want to acknowledge the improvements that I have seen in 
regards to the Annual Earnings Statement's availability to 
recipients. I now understand that there is a secure website 
where the information that would be contained in the mailed 
version of the Annual Earnings Statement is available.
    I have communicated with you the importance of this 
document for people knowing and projecting where their 
retirement income will be, to look at the accuracy of the 
information, to look at their eligibility. I also understand 
you do have, if the President's budget level is approved, 
resources to mail it out to individuals as a hard copy. I would 
encourage you to make that information as accessible as 
possible. It is very important for people to know where they 
are in the Social Security system.
    I want to talk about the issue that you have raised. I have 
had a chance, as you know, to visit the SSA workforce in 
Maryland. These are dedicated people, working very hard. You 
pointed out that their productivity is up 4 percent a year now 
consistently. You have had 6,500 fewer workers, and the 
workforce is decreasing every day.
    The interesting point you raise is, as you lose a person 
through retirement, it takes you a period of time to get 
another person trained to do that work. You say as much as a 
year could be lost in productivity as the result of retiring 
staff.
    Commissioner Astrue. Yes.
    Senator Cardin. Now, you have gone through 2 years of a pay 
freeze. We have a projected pay increase for Federal workers 
that would be less than what would be normally required. We 
have a tax on retirement which has to have an impact. I mean, 
when your workers look at what Congress is considering here 
regarding pay and changing the retirement rules, it seems to me 
it encourages some people who have the ability to retire to 
say, why am I putting up with this?
    So is this a real concern, that we are losing people who 
otherwise might be staying in public service and providing the 
services so that disability determinations can be done more 
timely because of people just saying, what are we doing here; 
there is a tax coming all the time?
    Commissioner Astrue. I would say I am close to panic about 
holding on to our people, because they are the ones who do the 
work. We would be nothing without them. It is very hard to find 
the right people and to train them properly. Really, for a lot 
of what we do, you often need 5 or 10 years of experience to do 
it well. So, I work very hard to try to hold on to people.
    I will tell you another factor for so many of our people on 
our front line that is scary. Even in a tight budget, we have 
invested a lot more in the physical security in our offices. I 
read every violence report that comes into the Agency, and they 
were not a big deal 5 years ago. I think there were only about 
500 attacks or serious threats of assault. I think it is about 
2,500 this year.
    With the recession, the intensity of the incidents got 
worse. I think that it is easy in a lot of government agencies 
to be insulated from that. Most of our people are out on the 
front line, looking face-to-face with severely disturbed people 
on a regular basis.
    That tension during the recession--where people have been 
more violent, people have been more anti-government, and there 
have been a lot more threats of violence--is a real factor in 
losing people too. That is taking a toll on people on the front 
line, and that is why we have invested, even in a tight budget, 
more on security than we have in the past.
    Senator Cardin. I know we are going to have disagreements, 
legitimate disagreements, on budget priorities and how to 
proceed to balance the Federal budget. But I think we all want 
to make sure that our Federal workforce is safe, that it has 
the support it needs.
    I do not know of a member of the Senate who does not 
believe that the benefits provided by the Social Security 
Administration are vital to our country. I do not know of a 
member who does not want to see the services done in a more 
timely way, in a more professional way. When you have an agency 
that has an increased productivity at the level that you have 
been able to achieve that is being asked to do more with less, 
I think the least we can do is to make sure that we provide the 
type of support you need in order to get the job done.
    Commissioner Astrue. Thank you.
    Senator Cardin. And I certainly would think our language 
here at times has been counterproductive to keeping some of our 
best in public service.
    Commissioner Astrue. Thank you, Senator.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Grassley?
    Senator Grassley. Thank you, Mr. Chairman. Thank you, Mr. 
Astrue, for your work.
    Following a little bit on the last conversation you had 
with Senator Hatch, but asking in a little different direction, 
you made some reference in your opening statement about how the 
online application has helped ``deal with the additional 
economy-driven claims.''
    This raises the question of whether the Disability 
Insurance program has become an alternative unemployment 
benefit. Those receiving benefits who are not disabled slow 
down the Agency's response to those who are disabled. They 
obviously contribute to the trust fund insolvency problem.
    Two specific questions. Why should the economy have a 
significant impact on the number of claims? In other words, 
people should not be filing claims because the economy is bad; 
they file claims because they think they are disabled. Then 
second, what is the total number of applications for fiscal 
year 2011, and how many of those were not approved?
    Commissioner Astrue. Senator, there has been a fairly 
substantial body of economic research over the years that shows 
that, in times of recession, with a bit of a lag because of the 
effect of unemployment compensation, disability applications 
rise. That does not mean that those are meritorious 
applications, but you get people who are on the margins who 
decide to take the chance.
    There is, as much as we try to make this as black and white 
as possible, a random element. These are human beings, often 
making difficult calls, so people decide to take the chance. 
Now, typically what should happen--and what does happen in most 
cases--is that most of those claims are rejected, but we do not 
stop people from applying.
    So it is not just this recession. If you go back 
historically, for instance, looking at the early 1980s and 
other periods of high recession, the DI workload goes up. I 
will give you the precise numbers for the record, but in 2011 
we had somewhere between 3.2 and 3.3 million applications. If I 
remember correctly, at the initial level we allowed about 34 
percent, but let me just double-check and make sure. I am very 
close, and we will provide the precise number for the record.*
---------------------------------------------------------------------------
    * SSA received 3,257,461 initial disability applications for fiscal 
year 2011, and the initial disability allowance rate in fiscal year 
2011 was 34 percent.
---------------------------------------------------------------------------
    Let me also respond to what I think you and Senator Hatch 
are trying to get at, in a way. If you are concerned about the 
system not being tight enough, there are some things that I 
think this committee should consider looking at. Over time, I 
think the courts, out of sympathy for claimants, have expanded 
statutory language beyond your intent.
    In particular, we have inconsistent rulings in the Circuits 
on the treating physician rule, which is critical to a lot of 
our cases. In the 9th Circuit, for instance, I believe it is 
particularly broad. They cannot all be right, and it is 
potentially a way of blowing open the system and allowing cases 
that should not be allowed, if that standard is not consistent 
with what I believe is Congress's original intent. That is an 
area that I think is worth looking at.
    The area of what constitutes improvement on continuing 
disability reviews is also worth looking at. Courts, I think, 
hold us to a higher standard than what Congress originally 
intended. Also, the return to work area, I think, is important. 
As admirably intended as the Ticket to Work Program was, I 
think it has been a disappointment in terms of its outcome. It 
is not, according to the actuaries, cost-effective yet.
    I think part of the reason for that is that Congress has, 
every 5 to 10 years, layered on more work incentives. It is so 
complex that I think it overwhelms people who do want to come 
back to work. Until recently, Congress has authorized what we 
call Work Incentives Planning and Assistance providers, or 
WIPAs, largely to explain to people how to return to work. That 
is a program that has not been reauthorized, and we think that 
it should. Although someday, I think it would be better to just 
simplify the program.
    In general, I know that, with the way the budget trends are 
going, we cannot continue to do business as usual. What I would 
plead with the committee to consider doing is, if you cannot 
provide more money, let us look at ways to simplify the 
statute, simplify our responsibilities. I think sometimes in 
trying to get equity and a lot of policy perfections, we have 
introduced complexity that has had unintended negative 
consequences for the public. So, I think working on legislative 
simplification generally would be a very positive way for us to 
go.
    The Chairman. Senator Nelson?
    Senator Nelson. Good morning, Mr. Astrue.
    Commissioner Astrue. Good morning.
    Senator Nelson. I want to follow up on the question of 
publishing the names and Social Security numbers of deceased 
people that you and I have talked about. But Mr. Chairman, let 
me set the table.
    What is happening is, we have a new kind of crime. It is 
not a crime with a gun or a knife or a crowbar; it is the use 
of a laptop. Once the Social Security numbers, particularly of 
deceased people, have been acquired--which are published by 
Social Security--they file in the name of the deceased or, in 
some cases, of a deceased child, most recently--in the Morning 
News out of Memphis--a deceased child that lost a 4-year battle 
with cancer. The name was published, the Social Security number 
was published. The child's Social Security number was used as a 
dependent on a false tax return asking for a refund.
    What is happening in communities like Tampa and Orlando is, 
street crimes--drugs, thefts, burglaries--are going down, 
because it is so easy for the criminals to get all of this 
money from income tax refunds because they have gotten 
somebody's Social Security number. One of the sources, as 
pointed out by the Morning News from Memphis, is decedents' 
Social Security numbers being published by Social Security.
    So, when I talked to Mr. Astrue about this, he said he has 
a lawsuit settlement that requires, under FOIA--the Freedom of 
Information Act--that these numbers have to be published. He 
says that we can only change this by statute. Well, of course, 
I have filed the statute. But in the meantime, the criminals 
are having a field day.
    Now, I disagree with Mr. Astrue, and I want to bring to his 
attention some changed facts. In the first place, he is 
operating with legal counsel on the basis of a lawsuit that was 
settled in 1980, and the lawsuit was settled under FOIA just 
for the names and Social Security numbers. It was to be 
published once a year.
    He publishes names, Social Security numbers, and other 
information every day. That is a big difference. I would ask 
you to consider that. You publish their address, you publish 
their date of death, you publish probably their date of birth, 
a whole set of information that was not required by the 
original lawsuit in 1980.
    Mr. Chairman, I would also bring to the committee's 
attention that since 1980 there have been a lot of cases that 
have found that the deceased has a privacy interest. Let me 
give you one that I have some familiarity with, because, as you 
know, after we returned to earth on the 24th flight of the 
space shuttle, 10 days later Challenger launched. Of course, 
through FOIA, people were trying to get all kinds of 
information about the astronauts. That case ruled that the 
victims have a privacy interest that can be protected.
    So, Mr. Astrue, I would ask, with this additional 
information, would you please consider, until we can pass the 
statute changing the law, that you do not have to publish all 
of this information and do so on a daily basis, which makes it 
so easy for the criminals to get their hands on it and do this 
new type of crime that is ripping off millions and millions of 
dollars from American taxpayers? And furthermore, would you 
consider that you, even under the current lawsuit settlement, 
could publish the names and only the last four digits, which 
would then prohibit the criminals from carrying out this highly 
new kind of effective crime?
    Commissioner Astrue. Senator Nelson, you and I have talked 
about this personally, and we are just in disagreement on the 
law. With all due respect, this is something I have looked at 
extremely carefully. I am a former Agency General Counsel. I am 
a former White House Freedom of Information Act and Privacy Act 
officer--so this is an area of the law that I know something 
about.
    You in the Congress have set the statutory time deadlines 
for disclosure under the Privacy Act and FOIA with some severe 
penalties for non-compliance under the Privacy Act. I cannot 
release them every year because you and the Congress have 
decided that I cannot do that.
    I also, as we have discussed before, do not think that we 
have statutory authority to withhold that information. There is 
a strong presumption of release under those statutes. You need 
an exemption. The Challenger case is the only case on the other 
side. I do not believe that the Challenger case has broad 
application. No court since the Challenger case has applied or 
broadened that exception in this way, so I do not believe that 
that is available to me.
    But, even if I were wrong on that, as a practical matter 
you have to understand that the Carter administration settled 
this case under a judicial decree in 1980. I cannot just go 
back and thumb my nose at a Federal court order. I would have 
to, first of all, get the Department of Justice to challenge 
it, which I do not believe that they would do because they have 
no basis for going back and reopening it. That is why they 
support the legislation that the administration has proposed 
that is somewhat similar to yours, and then it would probably 
be a 4-year process to get a definitive decision even if the 
Justice Department were to do that.
    So I do not think it is appropriate, I do not think it is 
practical, and I think what has to happen is the Congress has 
to act. I think that this is one of those rare opportunities 
where we can set aside a lot of the bipartisan problems in 
Washington and work together in collaboration.
    The administration has a bill that is similar to the 
congressional bills. In the House, the lead has been on the 
Republican side, Chairman Johnson of the Ways and Means 
Committee; you and Senator Durbin have introduced a bill here 
with the Senate. I would say to you I think that this committee 
and the Senate ought to take it as a personal challenge to get 
this bill passed this year.
    I think this is one of the relatively few areas where I do 
not think there is a big disagreement on principle. So I would 
say this is the Congress's responsibility, not the executive 
branch's, to fix, and I would urge you to fix it as quickly as 
possible.
    Senator Nelson. In a normal year, Mr. Chairman, this would 
be the kind of bill that would be considered a motherhood bill. 
But the fact is that, since it touches on taxes and Social 
Security in this political context of an election year for 
President, it is going to be very difficult.
    In the meantime, there is a public interest to be 
protected. Mr. Astrue and I disagree on this, and I would just 
merely ask you what you just said, if you would request of the 
Justice Department their interpretation, so that, if perhaps 
you might be wrong in your considered judgment as former legal 
counsel, we might get some relief until we can pass this 
statute.
    Mr. Chairman, thank you very much.
    The Chairman. Thank you, Senator. Clearly, this is a 
problem. I think it would be worth our while to try to take up 
this legislation. You have your legislation, the administration 
has its version. They sound not dissimilar, and both are geared 
to resolve the same problem.
    My view is, we have to try. I recognize some of the 
difficulties that occurred in the Congress this year, but heck, 
you never get anything accomplished if you do not try. So let 
us see what we can do to work with the administration, with you 
Senator, and maybe have a hearing on the subject, because it is 
an outrage, how people take advantage of the Social Security 
Administration in getting those numbers and filing for tax 
refunds. It just is an outrage, and let us see what we can do 
to stop it.
    Senator Nelson. And, Mr. Chairman, we have had two hearings 
on this in the subcommittee that I have the privilege of 
chairing.
    The Chairman. Right.
    Senator Nelson. So the record is complete.
    The Chairman. All right. Thank you.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman, for calling the 
hearing. I want to thank Commissioner Astrue for being here to 
testify.
    Social Security is the single largest category of the 
Federal budget, and the Social Security trustees recently 
released their annual report on the financial status of the 
program. The report found that Social Security can sustain full 
benefit payments for only another 20 years, 3 years less than 
the last estimate.
    That means that, without reform, Social Security is going 
to exhaust its trust fund reserves by the year 2033. The Social 
Security Disability Insurance trust fund will be in bankruptcy 
by 2016 at the latest. If this happens, benefits will be 
automatically cut for current beneficiaries.
    The trustees' report underscores the need for meaningful 
entitlement reform to protect benefits for future generations, 
which is why it is always so troubling to find and to hear 
about and learn of fraud within the program. In addition to 
meaningful reform to ensure the long-term solvency of Social 
Security, we have to ensure that the programs are operating 
efficiently.
    I would like to go back to something that Senator Hatch 
mentioned, and that is this Wall Street Journal report from 
last December about some potentially fraudulent practices on 
the part of law firms, such as Binder and Binder, representing 
claimants for disability benefits before the Social Security 
Administration, particularly in the appeals process where 
administrative law judges adjudicate claims.
    The report, which I would like to submit for the record, 
found that claimant representatives have, in many cases, 
withheld medical evidence from the Social Security 
Administration that could prove their clients should not be 
eligible to receive disability benefits. Senator Coburn has 
done a lot of work in this area, and I want to recognize his 
efforts in that regard in shedding light on the issue.
    [The Wall Street Journal report appears in the appendix on 
p. 94.]
    Senator Thune. But I am disappointed to learn that the 
Social Security Administration has refused to take action to 
address the allegations about this law firm and their material 
representations to the Social Security Administration.
    I believe that full, medical continuing disability reviews 
must be performed on Binder and Binder claimants so that we can 
be sure that only eligible claimants qualify for SSDI benefits. 
SSA has a sufficient budget to do so, and in my view these 
reviews should be done, not just on new allegations, but on 
prior allegations as well.
    So my question is, is it not within your authority to 
prioritize the Social Security Administration's program 
integrity functions within your existing budget to ensure that 
there is a proper response to these claims?
    Commissioner Astrue. Senator, I am afraid I am going to 
have to disagree with a number of the assumptions of your 
question. First of all, I am familiar with the Wall Street 
Journal article. We did not take ``no action''; we did refer 
that to the Office of the Inspector General. If you have 
questions about the progress of that, I would encourage you to 
talk to the Inspector General.
    But that article was relatively thin in terms of the 
content of allegations. There really was not, in my opinion, 
very much there. It is also based in part on a misassumption 
that there is a requirement for all relevant medical evidence 
to be provided to the judge. Right now, that is not in our 
regulations. The previous two Commissioners tried to change our 
regulations, and my understanding is that they received a lot 
of opposition and not much support here in the Congress for 
that.
    So first of all, the Wall Street Journal had it dead wrong 
on what the law is. Second, there was not much in the way of 
allegations. Third, it would be unprecedented to go back and 
review all cases by a law firm on evidence anywhere near this 
thin.
    Without proof of real fraud--and I have no information from 
the Inspector General that suggests that we have that--it would 
be totally unprecedented to do that. Any court looking at that 
would throw it all out immediately. It would be an enormous 
waste of the taxpayers' dollars for me to do that.
    Senator Thune. Do you have any indications yet, can you 
summarize for us any of the Inspector General's findings? There 
is nothing that they have reported on yet.
    Commissioner Astrue. There is nothing publicly reported on 
that.
    Senator Thune. Publicly.
    Commissioner Astrue. I do not have much more than that. 
Again, Senator, read that Wall Street Journal article very 
carefully. When you realize, first of all, that there is not a 
legal obligation to present every bit of evidence to the 
Agency, because our rules are not written that way, there is a 
factual error underlying that whole article. Past that, there 
is not very much that is specific in terms of evidence. There 
is unsupported hearsay, that type of thing. It may be true, 
but, in order for us to take action, we have to have some proof 
and evidence. The Wall Street Journal certainly did not provide 
very much for the Inspector General to go on.
    Senator Thune. I am sure we will revisit that issue.
    Last month there was a Social Security Administration 
disability claims judge--judges, I should say--that was 
instructed to no longer seek out information from social media 
websites when deciding cases.
    Commissioner Astrue. Yes.
    Senator Thune. As you know, in our digital world, with the 
Internet, including social media websites, they have provided 
an important tool for ALJs to gather evidence about SSDI and 
SSI program applicants. Law enforcement in particular is using 
some of those mediums for investigative purposes. Does the 
recent decision by the SSA work against program integrity?
    Commissioner Astrue. No, just to the contrary. First of 
all, you need to understand that to protect the public's 
privacy and to protect hundreds of millions of dollars--
billions of dollars--of investment in systems, we have one of 
the toughest firewalls in the world. It is not just that we do 
not allow the judges to use Facebook. None of our employees can 
use Facebook.
    I cannot get onto my computer and go on Facebook unless I 
specifically use a complicated work-around from the IT people. 
Number one, we do that to protect, first of all, the privacy of 
individuals and, second of all, to avoid horribly damaging 
malware getting into the system that could cost hundreds of 
millions of dollars to fix.
    Number two, in my opinion, I have to run a very tight, 
efficient operation to meet the public's and Congress's 
expectations. If you allow broad social media access on 
government time, I think that becomes an enormous suck on 
productivity. I think if I were to allow it, it would be a very 
short period of time before I would be before a committee 
trying to answer the question, ``How come your employees are 
spending all their time on Facebook and other social media 
sites?''
    The final thing is, if a judge becomes aware of something 
that looks fraudulent from a social media site, we have not 
told them to ignore it. What we have done, consistent with our 
longstanding policies, is tell them to refer it to the 
Inspector General so that there can be a proper investigation.
    I want to assure you that social media sites are not 
exactly clear and reliable evidence. It takes some context 
sometimes to figure out, well, is that really the person? 
Facebook puts up phony websites under my name all the time. I 
have never signed up for Facebook, but I am constantly asking 
them to take down signs on Facebook sites that purport to be 
mine. Spouses, angry ex-spouses do that to each other.
    One has to be a little bit careful about these things, 
which is why you need professionally trained fraud 
investigators to take circumstantial evidence of fraud and see 
if it is real. So I think that we are doing exactly the 
appropriate thing to do.
    Senator Thune. All right. Well, thank you, Mr. Chairman. I 
see my time has expired. I do not disagree there are abuses on 
social media platforms. I think we are all aware of those sorts 
of things. But it seems to me that enrolling beneficiaries in 
the SSDI program who do not meet its requirements is simply 
inexcusable, and I just think that any fraud prevention tool 
that is available out there that can be used--and like I said, 
I mean, law enforcement is using these media for their 
investigative purposes. We should be doing everything we can, 
with every tool available to us in this day and age--
particularly with the challenges we are facing fiscally in 
these programs--to get rid of and root out fraud and abuse at 
every turn.
    Commissioner Astrue. That, I actually agree with, Senator. 
What I would say is, the Inspector General does use social 
media and other sites to start fraud investigations. They do go 
and observe claimants whom they suspect are committing fraud, 
try to video them at home, and that type of thing. They have 
been under-resourced in recent years. Not all of what they call 
the Cooperative Disability Investigations (CDI) units that 
investigate that kind of fraud are funded now.
    So, in addition to making a pitch for my budget under the 
President's recommendation, when you look at the IG's budget, 
they have in fact cut back a little bit on those CDI units. 
That is the most effective front-line unit that we have on 
fraud, and the Congress has not been fully supportive of that. 
So, I would ask you to take a look at that.
    Senator Thune. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Hatch?
    Senator Hatch. Well, I have a number of other questions, 
and I will just submit them to you.
    [The questions appear in the appendix.]
    Senator Hatch. But let me just ask this one, because it 
borders a little bit on Senator Nelson's concerns. I just 
thought maybe I should ask this. I also have a question that 
has arisen from my Utah constituents quite a bit.
    So, as I understand it, the Social Security Administration 
is seeking alterations to the accessibility of information in 
the public death file, sometimes called a Death Master File, 
which the SSA releases through the Department of Commerce to 
any subscriber.
    The SSA's legislative specifications in this regard call 
for modifications of current restrictions on the release of 
certain information, certification by the SSA Commissioner of 
entities eligible to purchase the information, and authority to 
impose fees, penalties, audits, and inspections.
    There is, of course, a need to balance security concerns 
with data users' interests. It is unconscionable when data on 
deceased individuals are used in fraudulent ways, such as tax 
fraud and some of the ways that Senator Nelson just mentioned 
here.
    Yet, I would have to say there are legitimate commercial 
uses of the data that actually serve to deter some fraudulent 
activities and ensure that certain payments, such as life 
insurance payments, are properly made. I also believe that 
there are legitimate uses of the data by private interests for 
purposes of forensic or personal genealogical research, which 
is something we in Utah do a lot of.
    In its legislative specifications, however, the SSA 
explicitly identifies use of data for genealogical purposes as 
an illegitimate need for such public information. Now, such a 
stance is naturally of concern to me, and certainly to many of 
my Utah constituents.
    Now, Mr. Commissioner, will you be promulgating new rules 
for accessibility of the so-called Death Master File, or are 
you, as I think you have indicated, indicating a statutory 
change or a legislative change? In either case, will you assure 
me that you intend to work with members of this committee on 
any proposals to change accessibility?
    Commissioner Astrue. I think we are in agreement, Senator 
Hatch. I think I was trying to be clear with Senator Nelson 
that I do not view this as a problem that I can solve 
administratively. I do not think I have the authority to do it. 
In fact, the difficult balances that you are pointing out, 
which I agree with completely, I think help prove my point. 
That is classic legislative balancing. That is not a decision 
that the Congress has empowered me to make.
    We had a meeting in the Ways and Means Committee earlier in 
the week, and we had this hearing. I was hopeful that we would 
have the specifications converted to actual legislative 
language. We are not quite there. A part of that, I think, 
should be encouraging to you, Senator Hatch, since the 
specifications have become more public.
    It has raised some concerns. I give the administration, 
broadly, credit for listening to those concerns. It means that 
the legislative language is being a little bit delayed. But I 
do not think they are approaching this from a rigid point of 
view; I think they are trying to figure out the best way to 
balance those things.
    I will be quite candid: the reason we do not have the 
precise legislative language up here now is that there is some 
rethinking on a couple of the provisions, and I honestly do not 
know for sure, on a couple of these things, precisely how they 
will come out at the end.
    But whatever happens, there is enough overlap between 
Senator Nelson's bill, the administration's bill, and 
Congressman Johnson's bill in the House, that it is 90-percent 
overlap. I think that everyone realizes that the most important 
thing is to get moving to make sure that the major abuses do 
not continue. A lot of these other things are details that we 
will be able to work out through the course of the legislative 
process, and I certainly commit to working with the committee 
and the Congress generally to accomplish that.
    Senator Hatch. Well, thank you. I wanted to compliment you 
for the good work that you do.
    Commissioner Astrue. Thank you.
    Senator Hatch. You have my respect, for sure. Hopefully we 
can work out the statutory language so that some of these 
problems that have been raised can be solved. You are one of 
the few people I think who might be able to work that out in a 
way that would really work well. So I want to thank you for all 
the hard effort that you make, and appreciate your work.
    Commissioner Astrue. Thank you.
    Senator Hatch. Thanks so much, Mr. Chairman.
    The Chairman. Thank you, Senator. Thank you, Commissioner, 
too.
    I am just curious. You started out under one 
administration. You said during your confirmation hearing you 
wanted to serve your full 6-year term, you wanted to be 
independent and just do your work. Just, your thoughts now as 
you are near the end of your term.
    Commissioner Astrue. Well, thank you, Mr. Chairman. It has 
been a very interesting experience to straddle administrations, 
really, I think, for the first time as kind of a constitutional 
experiment.
    I want to give credit to the administration for trying to 
approach, what I am sure was not what they wished would happen, 
in a good spirit, and I have tried to respond in kind. So I 
think it has actually worked pretty well.
    Since you have asked, I will be honest; I am not sure it is 
a construct in the Washington of today that we can count on to 
work well going forward. So, even though it has worked well, at 
this time I think it is something that you ought to keep in 
mind and think about for the future.
    I am in my 6th year now. It has been extraordinarily 
rewarding, extraordinarily draining. I am very grateful to 
President Bush for having given me this opportunity. I am very 
grateful to this committee for having given me this 
opportunity.
    It is an incredible group of people to try to lead. The 
dedication to mission is remarkable. Almost everybody comes 
right out of high school or college and spends their career 
with the agency. It is the kind of thing that is remarkable.
    I worked for a Commissioner in the mid-1980s, and, of 
course, everyone thinks about what they would actually do if 
they could have the boss's job. I certainly did in the 1980s, 
but I never thought I would have the chance to do it. So it has 
been a great blessing to have that opportunity. Again, I thank 
all of you. I was thinking about this on the way up. This is 
probably my last appearance, actually, before the committee.
    The Chairman. You do not want 6 more years?
    Commissioner Astrue. No, I do not think so, Senator. I 
think it is time for me to go home to Massachusetts. But I 
started working with this committee as a very young person in 
1985 and really did get to know Senator Moynihan and Senator 
Dole quite well in that period, and some first-class staff 
people.
    The committee treated me extraordinarily well when I was 
confirmed in 1989. It has been in the same spirit since. The 
two of you have been spectacular. Senator Grassley was 
spectacularly helpful too when he was ranking member. The 
staffs work much more collegially than is common in the 
Congress these days. So, I guess I feel blessed all the way 
around.
    The Chairman. Well, we are surely blessed to have you 
working for us, especially the American people are blessed to 
have you working for the American people. You set a very good 
tone of collegiality and cooperation and working together. You 
are a good role model. That is something I am going to keep in 
mind throughout the years remembering you and all the good work 
you have done.
    Commissioner Astrue. Thank you.
    The Chairman. Thank you.
    The hearing is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was concluded.]


                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 80146.002

[GRAPHIC] [TIFF OMITTED] 80146.003

[GRAPHIC] [TIFF OMITTED] 80146.004

[GRAPHIC] [TIFF OMITTED] 80146.005

[GRAPHIC] [TIFF OMITTED] 80146.006

[GRAPHIC] [TIFF OMITTED] 80146.007

[GRAPHIC] [TIFF OMITTED] 80146.008

[GRAPHIC] [TIFF OMITTED] 80146.009

[GRAPHIC] [TIFF OMITTED] 80146.010

[GRAPHIC] [TIFF OMITTED] 80146.011

[GRAPHIC] [TIFF OMITTED] 80146.012

[GRAPHIC] [TIFF OMITTED] 80146.013

[GRAPHIC] [TIFF OMITTED] 80146.014

[GRAPHIC] [TIFF OMITTED] 80146.015

[GRAPHIC] [TIFF OMITTED] 80146.016

[GRAPHIC] [TIFF OMITTED] 80146.017

[GRAPHIC] [TIFF OMITTED] 80146.018

[GRAPHIC] [TIFF OMITTED] 80146.019

[GRAPHIC] [TIFF OMITTED] 80146.020

[GRAPHIC] [TIFF OMITTED] 80146.021

[GRAPHIC] [TIFF OMITTED] 80146.022

[GRAPHIC] [TIFF OMITTED] 80146.023

[GRAPHIC] [TIFF OMITTED] 80146.024

[GRAPHIC] [TIFF OMITTED] 80146.025

[GRAPHIC] [TIFF OMITTED] 80146.026

[GRAPHIC] [TIFF OMITTED] 80146.027

[GRAPHIC] [TIFF OMITTED] 80146.028

[GRAPHIC] [TIFF OMITTED] 80146.029

[GRAPHIC] [TIFF OMITTED] 80146.030

[GRAPHIC] [TIFF OMITTED] 80146.031

[GRAPHIC] [TIFF OMITTED] 80146.032

[GRAPHIC] [TIFF OMITTED] 80146.033

[GRAPHIC] [TIFF OMITTED] 80146.034

[GRAPHIC] [TIFF OMITTED] 80146.035

[GRAPHIC] [TIFF OMITTED] 80146.036

[GRAPHIC] [TIFF OMITTED] 80146.037

[GRAPHIC] [TIFF OMITTED] 80146.038

[GRAPHIC] [TIFF OMITTED] 80146.039

[GRAPHIC] [TIFF OMITTED] 80146.040

[GRAPHIC] [TIFF OMITTED] 80146.041

[GRAPHIC] [TIFF OMITTED] 80146.042

[GRAPHIC] [TIFF OMITTED] 80146.043

[GRAPHIC] [TIFF OMITTED] 80146.044

[GRAPHIC] [TIFF OMITTED] 80146.045

[GRAPHIC] [TIFF OMITTED] 80146.046

[GRAPHIC] [TIFF OMITTED] 80146.047

[GRAPHIC] [TIFF OMITTED] 80146.048

[GRAPHIC] [TIFF OMITTED] 80146.049

[GRAPHIC] [TIFF OMITTED] 80146.050

[GRAPHIC] [TIFF OMITTED] 80146.051

[GRAPHIC] [TIFF OMITTED] 80146.052

[GRAPHIC] [TIFF OMITTED] 80146.053

[GRAPHIC] [TIFF OMITTED] 80146.054

[GRAPHIC] [TIFF OMITTED] 80146.055

[GRAPHIC] [TIFF OMITTED] 80146.056

[GRAPHIC] [TIFF OMITTED] 80146.057

[GRAPHIC] [TIFF OMITTED] 80146.058

[GRAPHIC] [TIFF OMITTED] 80146.059

[GRAPHIC] [TIFF OMITTED] 80146.060

[GRAPHIC] [TIFF OMITTED] 80146.061

[GRAPHIC] [TIFF OMITTED] 80146.062

[GRAPHIC] [TIFF OMITTED] 80146.063

[GRAPHIC] [TIFF OMITTED] 80146.064

[GRAPHIC] [TIFF OMITTED] 80146.065

[GRAPHIC] [TIFF OMITTED] 80146.066

[GRAPHIC] [TIFF OMITTED] 80146.067

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 80146.069

[GRAPHIC] [TIFF OMITTED] 80146.070

[GRAPHIC] [TIFF OMITTED] 80146.071

[GRAPHIC] [TIFF OMITTED] 80146.072

[GRAPHIC] [TIFF OMITTED] 80146.073

[GRAPHIC] [TIFF OMITTED] 80146.074

[GRAPHIC] [TIFF OMITTED] 80146.075

[GRAPHIC] [TIFF OMITTED] 80146.076

[GRAPHIC] [TIFF OMITTED] 80146.077

[GRAPHIC] [TIFF OMITTED] 80146.078

[GRAPHIC] [TIFF OMITTED] 80146.079

[GRAPHIC] [TIFF OMITTED] 80146.080

[GRAPHIC] [TIFF OMITTED] 80146.081

[GRAPHIC] [TIFF OMITTED] 80146.082

                             Communications

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] 80146.084

[GRAPHIC] [TIFF OMITTED] 80146.085

[GRAPHIC] [TIFF OMITTED] 80146.086

[GRAPHIC] [TIFF OMITTED] 80146.087

[GRAPHIC] [TIFF OMITTED] 80146.088

[GRAPHIC] [TIFF OMITTED] 80146.089

[GRAPHIC] [TIFF OMITTED] 80146.090

[GRAPHIC] [TIFF OMITTED] 80146.091

[GRAPHIC] [TIFF OMITTED] 80146.092

[GRAPHIC] [TIFF OMITTED] 80146.093

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   



</pre></body></html>
